           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



         WORK ACTIVITY FOR
 SOCIAL SECURITY NUMBERS ASSIGNED
      FOR NONWORK PURPOSES
        IN THE STATE OF UTAH

     March 2002   A-14-01-11048


 AUDIT REPORT
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
  o   Promote economy, effectiveness, and efficiency within the agency.
  0   Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
  0   Review and make recommendations        regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
  0   Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
Memorandum

Date:   March 29, 2002                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject:   Work Activity for Social Security Numbers Assigned for Nonwork Purposes in the State
           of Utah (A-14-01-11048)


            OBJECTIVE
            The objective of our audit was to review the assignment of Social Security numbers
            (SSN) for nonwork purposes by Social Security Administration (SSA) field offices (FO)
            in the State of Utah. Specifically, we wanted to determine whether people were using
            these nonwork SSNs1 to obtain employment.

            The Office of the Inspector General’s (OIG) Office of Investigations (OI) found that an
            unusually high number of individuals who were not residents of Utah were traveling to
            that State to request a driver’s license to obtain a nonwork SSN. As a result, OI
            requested that we audit the assignment of nonwork SSNs in the State of Utah.

            BACKGROUND
        SSA assigns SSNs for limited nonwork purposes to individuals who are not U.S. citizens
        and have not been authorized to work by the Immigration and Naturalization Service
        (INS). SSA only issues nonwork SSNs to individuals who are not authorized to work but
        need an SSN to obtain a State driver’s license to receive other federally funded benefits
        or services to receive State or local general assistance benefits; or, for a few restricted




        1
          For the remainder of this report, we call Social Security numbers assigned for nonwork purposes
        “nonwork SSNs.”
Page 2 - Jo Anne B. Barnhart

tax, banking, and military purposes.2 Ten States, including the State of Utah, require
that people have an SSN as a prerequisite to obtain a driver’s license.3

To receive a nonwork SSN, applicants must provide SSA valid INS documentation
proving they are lawfully present in the United States.4 They must also provide
documentation to support their need for a nonwork SSN.5 Examples are a letter from a
State Department of Motor Vehicles (DMV) citing the need for an SSN to obtain a
driver’s license or a letter from a Federal, State or local Government agency requiring
an SSN to receive benefits or services. SSA FO employees review the documentation
for authenticity, approve the SSN application, and enter the applicant information into
the SSA enumeration system. The enumeration system processes the information, and
a nonwork SSN card (annotated with a nonwork legend) is issued to the applicant.

                                           Despite this nonwork legend, SSA credits earnings
                                           reported under the nonwork SSNs. For instance, in
                                           tax years 1998 through 2000, SSA credited earnings
                                           of $36.1 million to 2,058 nonwork SSNs issued in
                                           Utah. SSA not only credits earnings, it pays Old-
                                           Age, Survivors and Disability Insurance benefits
                                           based on the earnings obtained under a nonwork
                                           SSN as long as the worker has met all benefit
                                           eligibility requirements.6

SCOPE AND METHODOLOGY
To achieve our objective, we examined the use of nonwork SSNs issued by SSA FOs in
the State of Utah. We obtained access to SSA’s Enumeration Transaction History Files
and extracted 263,198 records for all nonwork SSNs issued nationwide from May 1998
to May 2001. From this file, we extracted the 11,387 nonwork SSN records issued in
Utah. To identify all individuals who were using nonwork SSNs to work, we matched
2
  As amended by Emergency Messages 96-183, 97-11 and 00-153, SSA’s Program Operations Manual
System RM 00203.510. In 1998, SSA amended 20 CFR 422.104 and 422.107 to remove references to
nonwork SSNs for tax purposes because the Internal Revenue Service began assigning Individual
Taxpayer Identification Numbers in July 1996. 63 F.R. 56552 (Oct. 22, 1998). On
October 12, 1999, SSA published an advanced notice of proposed rulemaking to amend 20 CFR 422.104
to restrict the issuance of nonwork SSNs. 64 F.R. 55217 (Oct. 12, 1999). Under the proposed rule, legal
aliens without work authorization would be issued nonwork SSNs only if a Federal statute or regulation
required the alien to have an SSN to receive a federally funded benefit or service to which the alien has
established entitlement. Ibid. SSA would no longer assign a nonwork SSN to an alien without work
authorization solely in order to receive a State or local general assistance benefits, or a drivers license.
Ibid. This proposed rulemaking is pending.
3
  According to SSA’s Office of Program Benefits, as of August 2001, 10 States required an SSN to obtain
a driver’s license. They are: Alabama, Hawaii, Illinois, Iowa, Kentucky, Mississippi, New Mexico,
Pennsylvania, Utah and West Virginia.
4
  POMS RM00203.510.
5
  Ibid.
6
  This was confirmed in the OIG audit report, Review of Controls Over Nonwork Social Security Numbers
(A-08-97-41002), issued in September 1999.
Page 3 - Jo Anne B. Barnhart

the Utah records with SSA’s earnings records. We did not assume the Utah records
reflected nonwork status at the time of employment, only the status when last reported
to SSA. Finally, we sorted the Utah nonwork records by address to determine whether
multiple applicants were using the same address or post office box.

We reviewed SSA’s policy, procedures and regulations pertaining to the issuance and
use of nonwork SSNs. To determine whether SSA could change its regulations to
restrict the supply of nonwork SSNs, we requested and received guidance from the
Office of the Counsel to the Inspector General. We discussed the results of our review
with appropriate personnel in SSA’s Offices of Policy, Program Benefits, and Systems.
We also discussed with appropriate INS personnel actions it takes on reports of
employment under nonwork SSNs.

We conducted our audit at SSA Headquarters in Baltimore, Maryland, and completed
field work between July and November 2001. Our audit was conducted in accordance
with generally accepted government auditing standards.

RESULTS OF REVIEW

We found that individuals who were not authorized to work by the INS were requesting
and receiving nonwork SSNs and using them to gain employment. Between 1998 and
2001, the number of these nonwork SSNs issued by SSA FOs in the State of Utah
increased nearly 300 percent, from 2,356 in 1998 to 6,599 in 2001.7

Fifty-four percent of the people who received a nonwork SSN in Utah in 1998 and 1999
found employment, and, for 3 years starting in 1998, had $36.1 million in earnings
reported under their nonwork SSN (see Appendix B for details). We found that
individuals used nonwork SSNs obtained in Utah as if they were a regular SSN, and
SSA had insufficient controls to prevent their unauthorized use. Once SSA was aware
the nonwork SSNs were being used for an unauthorized purpose, the Agency reported
the information to INS annually and took no additional action.

INCREASE IN SSNs ASSIGNED FOR NONWORK PURPOSES IN UTAH

The number of nonwork SSNs issued nationwide dropped from 128,289 in
Calendar Year (CY) 1998 to 84,454 in CY 1999 and 67,357 in CY 2000. However,
since CY 2000, the number of nonwork SSNs issued by SSA nationwide has increased,
and the Agency is on track to issue nearly 70,845 nonwork numbers in CY 2001. We
estimate over 9 percent of these SSNs will be issued in the State of Utah (see
Appendix C for details).



7
  As shown in Appendix C, SSA issued 2,791 nonwork SSNs in Utah during the first 22 weeks of
CY 2001. To annualize the figure, we calculated the average number of nonwork SSNs issued monthly
(2,791 divided by 22 weeks) and multiplied the result by 52 weeks.
Page 4 - Jo Anne B. Barnhart

    Number of Nonwork SSNs Issued Nationally and in Utah 1998-2001

       Calendar             Issued             Issued in the      Percent Issued
        Year               Nationwide          State of Utah         in Utah
        1998                    128,289                 2,356           2
        1999                     84,454                 2,339           3
        2000                     67,357                 4,762           7
        2001                     70,845                 6,599           9

The number of nonwork SSNs issued by FOs in Utah has increased nearly
300 percent.8 In the same period, the ratio of nonwork SSNs issued by SSA in Utah as
compared to the Nation grew by over 500 percent. Between CYs 1999 and 2000, the
number of nonwork SSNs issued in Utah more than doubled.9

More than half of the nonwork SSNs issued in Utah between May 1998 and May 2001
were sent to an address where multiple nonwork SSNs were received. In slightly over
11 percent of all cases (1,066 issuances), 7 or more nonwork SSNs were sent to the
same address, and 1 address received 59 nonwork numbers. In addition, SSA sent
879 nonwork SSNs to post office boxes in Utah. SSA employees in Utah sent another
55 nonwork numbers to post office boxes and addresses in other States.

PEOPLE ARE USING NONWORK SSNs FOR EMPLOYMENT

Not only is SSA assigning more SSNs for nonwork purposes in the State of Utah,
individuals receiving the nonwork SSNs are using them for employment. Of the
3,834 individuals who received nonwork SSNs in Utah from May 1998 through
December 1999, we determined that 2,058 (54 percent) had $36.1 million in earnings
reported under their nonwork SSNs for CYs 1998 through 2000. The majority of the
nonwork SSNs with earnings (1,384 of 2,058 or 67 percent) showed earnings in the
CY of issuance (see Appendix B for details). An additional 20 of these nonwork SSNs
had wages recorded for 1 or 2 years before receipt of the nonwork SSN. These
individuals went to work first, later obtained a nonwork SSN, and then SSA recorded the
prior year earnings against their nonwork SSN.

FEW CONTROLS OVER THE ASSIGNMENT AND USE OF NONWORK SSNs

We examined controls over the assignment and unauthorized use of a nonwork SSN
and determined those controls to be insufficient. In Utah, the assignment process
begins when people who are not authorized to work need a nonwork SSN to qualify for
certain federally funded Government benefits or services or to obtain a driver’s license.
Again, these applicants take documentation from the Federal, State or local
Government agency to SSA to validate their request for a nonwork SSN. SSA accepts
8
  In CY 1998, Social Security personnel in Utah issued an average 45.3 nonwork SSNs a week. By
CY 2001, they were issuing an average 126.9 nonwork SSNs a week.
9
  In CY 1999, Social Security personnel in Utah issued 2,339 nonwork SSNs. In CY 2000, they issued
4,762 nonwork SSNs.
Page 5 - Jo Anne B. Barnhart

the documentation if it appears valid, but, according to the records and policies and
procedures we reviewed, SSA does not require cross-agency verification before issuing
the number. SSA employees reviewing the nonwork SSN application do not have to
contact the Government agency that prepared the documentation to verify its
authenticity. The nonwork SSN application and copies of supporting documentation do
not have to be independently reviewed by a second employee before being processed.

When people who acquire a nonwork SSN find employment, SSA automatically credits
the earnings reported for that number. Later, SSA will pay benefits based on the
earnings obtained under the nonwork SSN. Each year, SSA notifies INS of earnings
recorded for nonwork SSNs.10 However, the notification occurs 6 to 18 months after the
earnings take place, and, according to INS and SSA staff, INS has no written policies or
procedures for using the earnings information to curb unauthorized employment.

SSA and INS employees familiar with the annual notification indicate that resource
priorities and data compatibility problems prevent INS from making effective use of the
earnings information SSA provides. SSA and INS structure certain data fields
differently, which makes it difficult for the two Agencies to match records.
Consequently, the INS cannot adequately identify non-citizens who are employed
illegally or employers who constantly hire these individuals. In other words, it cannot
fully enforce immigration laws.

SSA receives wage information from employers’ annually, which can result in a 6 to
18 month delay in documenting an individual’s earnings. This time lag makes it
ineffective for SSA to associate earnings with an individual’s INS nonwork status,
especially since INS can periodically change an individual’s work status. One way to
improve this process would be to receive earnings information more frequently through
the Office of Child Support Enforcement’s (OCSE) quarterly wage reports. According to
employees in SSA’s Office of Systems (OS), associating nonwork records with the
OCSE quarterly wage reports, would allow SSA FO employees to reference the file and
prevent the assignment of replacement nonwork SSN cards to non-citizens who are
working even though they are not authorized to work.11 Additionally, SSA could use the
same file to detect unauthorized employment and to put a nonwork legend or code on
SSN verification reports sent to employers. This would notify employers that an
individual was not authorized to work any time SSN verification is requested. SSN
verification often occurs when the employee is hired.

SSA/OS also believes that SSA should match the INS file with its Earning Suspense
File (ESF) to determine whether employers who consistently hire individuals who are
not authorized to work are also the biggest source of suspended wage reports. The
ESF is primarily a repository for employer wage reports that SSA cannot record on its
earnings records. Wages are recorded on the ESF when the name and SSN on the
employer report does not match SSA’s SSN enumeration records. Matching INS

10
     20 CFR 422.104.
11
     FO employees reference a monthly INS file that does not provide earnings information.
Page 6 - Jo Anne B. Barnhart

nonwork records with the ESF would help identify people who use false identities, often
those trying to avoid legal authority. Because the ESF may hold a rich history of illegal
employment activity, the results of such a match would be of interest to INS and other
law enforcement agencies.

CONCLUSIONS AND RECOMMENDATIONS

On November 1, 2001, SSA stated that it would change its policy to eliminate driver’s
license and vehicle registration as a reason for issuing a nonwork SSN effective
March 1, 2002. While we applaud the initiative, we believe SSA should go further. It
should immediately change its policy to prevent a last-minute rush for nonwork SSNs
between now and March 2002.12

The Director for the Utah Driver’s License Division plans to introduce legislation in the
2003 State legislative session that would enable the DMV to replace the SSN with
another unique number for individuals who are not authorized to work but want to apply
for a State driver’s license. The Director stated that Utah would not be adversely
affected if SSA stopped assigning nonwork SSNs for the purpose of registering a motor
vehicle or obtaining a State driver’s license. The change would also reinforce a State
DMV initiative to stop displaying SSNs on State driver’s licenses.

SSA should establish additional controls over the issuance of nonwork SSNs.13 It
should, at a minimum, require FO staff members to independently verify a person’s
need for a nonwork SSN to receive a federally funded Government benefit or service,
such as public assistance. It should reinforce this control by requiring that a second
employee independently review the nonwork SSN application and supporting evidence
before allowing it to be processed.

Further, SSA should establish a meaningful dialogue with INS to resolve data
compatibility problems associated with the annual nonwork earnings file, and the
dialogue should involve people with the technical expertise needed to resolve the
problem. SSA should also negotiate an agreement with OCSE whereby SSA sends
OCSE a nonwork file quarterly and OCSE returns the file after associating earnings. A
similar OCSE agreement and computer match already exists for the Supplemental
Security Income program.



12
   In 1,919 of 3,218 cases, Social Security offices in Utah recorded evidence justifying the release of
nonwork SSNs that were used for employment in 1999 and 2000. In over 96 percent of the 1,919 cases,
applicants indicated that they needed the nonwork number to obtain a State driver’s license.
13
   A prior OIG audit report, Review of Controls Over Nonwork Social Security Numbers
(A-08-97-41002), issued in September 1999, recommended that SSA propose legislation that would
prohibit the crediting of unauthorized earnings for the purpose of paying benefits. SSA disagreed with the
recommendation because its records do not identify exact periods of unauthorized employment. In
Fiscal Year 2000, the OIG submitted a legislative proposal to prohibit the crediting of unauthorized
earnings and related quarters of coverage for purposes of benefit entitlement (see Appendix D).
Page 7 - Jo Anne B. Barnhart

The more timely wage information should be used to discourage illegal employment
when evident, primarily by preventing the assignment of replacement SSN cards and
advising employers of employee nonwork status. Also, SSA should match the quarterly
nonwork file with its Suspense file to identify and report to INS employers who
constantly hire people not authorized to work, and individuals who use, for employment,
nonwork SSNs and false identities.

We believe the cost of the changes recommended above would be minimal, especially if
incorporated with other enhancements. On November 1, 2001, the Acting
Commissioner for Social Security noted that SSA plans to meet with INS, the
Department of State, and the Department of Health and Human Services’ Office of
Refugee Resettlement to work out procedures for verifying INS documents before SSN
issuance. The discussions will involve data sharing and changes to SSA’s Modernized
Enumeration System, which relate to the recommendations below. To resolve data
compatibility problems with the nonwork SSN earnings file that SSA provides INS, and
to associate earnings with a monthly nonwork status file provided by INS, SSA will have
to change file format and modify software programs that will write and refer to those
files. Finally, once SSA stops issuing nonwork SSNs for driver’s license or vehicle
registration purposes, nonwork SSN applications should decrease by over 90 percent,
and FO staff nationwide would have to independently verify nonwork evidence for only
about 10 percent of the 70,845 nonwork SSN applications to be processed this year.

We recommend SSA:

1. Immediately amend its policy to prevent the issuance of nonwork SSNs to
   individuals who are not authorized to work and need an SSN to obtain a driver’s
   license and register a vehicle.

2. Have FO staff independently verify the need for a nonwork SSN and have
   applications for nonwork SSNs and their supporting documentation independently
   reviewed.

3. Work with INS to resolve data compatibility problems associated with the nonwork
   earnings file provided by SSA and involve employees familiar with the problem.

4. Work to establish an agreement with OCSE whereby SSA submits nonwork SSN
   records to OCSE each quarter, and OCSE associates quarterly earnings with the
   records before returning them to SSA.

5. Use the quarterly wage information or other suitable methods to prevent the
   assignment of replacement SSN cards when there is evidence of illegal employment
   and to advise employers of nonwork status when verifying employee SSNs.

6. Match the quarterly nonwork earnings file with the ESF to identify and report to INS
   employers who consistently hire people who are not authorized employment and
   individuals who use, for employment, nonwork SSNs and false identities.
Page 8 - Jo Anne B. Barnhart

AGENCY COMMENTS

SSA agreed, entirely or in part, with our Recommendations. Effective March 1, 2002,
SSA will no longer issue an SSN solely for the purpose of securing a State driver’s
license. Furthermore, SSA agreed to independently verify nonwork SSN requests with
the requiring Government agencies. Also, SSA is preparing to capture information that
will help resolve data compatibility problems with INS. In addition, the Agency will
tighten controls for issuing replacement SSN cards to non-citizens who are not
authorized employment, and will search for ways to help INS monitor employment
authorization. Finally, SSA finds merit or value in our Recommendations that it share
information with OCSE and INS to identify both people who work illegally and the
employers who hire them. The Agency will address these recommendations once it has
assessed the effect of enumeration improvement activities it has initiated with INS.

The Agency did not fully agree with Recommendation 2. SSA believes that verifying the
need for a nonwork SSN with the Government agency requiring it would add sufficient
improvement to the nonwork SSN enumeration process.

OIG RESPONSE

While SSA agreed with Recommendations 1 through 6, it did not agree with part of
Recommendation 2. The Agency stated that it was not necessary to have an
independent review of the nonwork SSN application and its supporting evidence before
processing the SSN request. Verifying the need for a nonwork SSN with the
Government agency requiring it should be sufficient improvement to the nonwork SSN
enumeration process. We disagree with SSA’s response because the risk of illegal
employment inherent in the assignment of a nonwork SSN justifies additional controls.

Our report demonstrates that non-citizens who are not authorized to work can easily
gain employment once assigned a valid SSN for nonwork purposes. SSA automatically
credits earnings reported under the nonwork SSN and later pays benefits based on the
earnings. Although SSA annually notifies INS of nonwork earnings, the notification is
not timely, and INS has no policies or procedures for using the earnings information.
SSA needs to establish an independent review to help ensure that employees do not
ignore the largely manual procedures that SSA plans to implement to verify evidence
supporting the nonwork SSN application.

Finally, we modified our report in accordance with SSA’s technical comments.




                                              James G. Huse, Jr.
                                      Appendices
Appendix A – Acronyms

Appendix B – Earnings Associated with Nonwork Social Security Numbers Issued in
             Utah Between May 1998 and 2000

Appendix C – Nonwork Social Security Numbers Issued Nationwide and in Utah
             Between May 1998 and May 2001

Appendix D – Office of the Inspector General Legislative Proposal to Prohibit Social
             Security Credits for Illegal Work

Appendix E – Agency Comments

Appendix F – OIG Contacts and Staff Acknowledgments
                                                    Appendix A
Acronyms

CY         Calendar Year
DMV        State Department of Motor Vehicles
ESF        Earnings Suspense File
FO         Field Office
INS        Immigration and Naturalization Service
OCSE       Office of Child Support Enforcement
OI         Office of Investigations
OIG        Office of the Inspector General
POMS       Program Operations Manual System
SSA        Social Security Administration
SSN        Social Security Number
                                                                      Appendix B
Earnings Associated with Nonwork Social Security Numbers Issued in
                 Utah Between May 1998 and 2000

Year                                                         1998         1999**            2000
Number of Weeks                                                33             50             52
Total NonWork SSNs Issued in Utah*                          1,495          2,339        4,762
Average Per Week                                             45.3           46.8            91.6
Total NonWork SSNs in Utah Having Earnings                    771          1,287        1,931
Total Amount of NonWork SSN Earnings 1998-2000       $17,221,421    $18,908,598 $10,576,394
Total Nonwork SSNs Earnings in the Same Year the              415           969         1,926
Nonwork Number was Issued

* To analyze the use of Social Security numbers (SSN) assigned for nonwork purposes,
we did the following.

   ·   Combined the number of people who received nonwork SSNs in Utah in
       Calendar Year (CY) 1998 and 1999. (1,495 + 2,339 = 3,834 people).

   ·   Retrieved the Social Security Administration’s earnings records and determined
       that 2,058 of the 3,834 successful applicants (54 percent) had a total of
       $36.1 million in earnings reported under their nonwork SSN for 3 years starting in
       1998 (771 of those applying in 1998 had $17,221,421 in earnings + 1,287 of
       those applying in 1999 had $18,908,598 in earnings).

   ·   Determined that 1,384 of the 2,058 people with earnings (67 percent) went to
       work in the same year they received the nonwork SSN (415 in 1998 + 969 in
       1999).

** Data were only available for 50 weeks in 1999
                                                                                Appendix C
     Nonwork Social Security Numbers Issued Nationwide and in Utah
                    between May 1998 and May 2001
                                                     Projected                                   Projected
Year                                    1998           1998*      1999**     2000      2001        2001*
Number of Weeks                          33             52          50        52        22          52
Total NonWork SSNs Issued Nationwide 81,414          128,289     84,454    67,357     29,973      70,845
Average Per Week                       2,467.1        2,467.1    1,689.1   1,295.3    1,362.4     1,362.4
Total NonWork SSNs Issued in Utah***    1,495         2,355.8     2,339     4,762      2,791       6,599
Average Per Week                        45.3           45.3        46.8      91.6      126.9       126.9
Percent of Nonwork SSNs Issued in Utah   1.8            1.8         2.8       7.1       9.3         9.3
Percent of Annual Increase Nationwide                             -34.2     -20.3                   5.2
Percent of Annual Increase in Utah                                 -0.7     103.6                  38.6


 * We annualized the nonwork Social Security numbers (SSN) issued in Calendar Years (CY) 1998
 and 2001 (see columns in table above): We multiplied 2,467.1 times 52 weeks to calculate
 128,289 nonwork SSNs issued nationwide in 1998, and 1,362.4 times 52 to calculate 70,845 issued
 nationwide in 2001. For Utah, we multiplied 45.3 and 126.9 times 52 weeks to calculate 2,356 and
 6,599 nonwork numbers issued in 1998 and 2001. Data are only maintained for 5 years, so only
 33 weeks of data were available in 1998.

 ** Data were only available for 50 weeks in 1999.

 *** Social Security field offices (FO) in Utah issued 4,762 nonwork SSNs in CY 2000 and are on track
 to issue 6,599 in 2001. Nationwide, Social Security FOs issued 67,357 nonwork SSNs in CY 2000
 and will issue 70,845 in CY 2001. The rate of increase is over 7 times greater for Utah (6,599-
 4,762/4,762 = 38.6 percent) than for the Nation (70,845-67,357/67,357 = 5.2 percent).
                                                        Appendix D
Office of the Inspector General Legislative Proposal to Prohibit Social
                   Security Credits for Illegal Work
                         SOCIAL SECURITY ADMINISTRATION
                      FISCAL YEAR 2002 LEGISLATIVE PROPOSAL


                             Prohibit Social Security Credits
                                     for Illegal Work

Long Title: Prohibit illegal and legal aliens who are not authorized to work from earning
quarters of coverage (QC) for illegal work activity.

Current Law: In accordance with the Social Security Act §205(c)(2)(A) and 20 CFR
§422.103, the Social Security Administration (SSA) maintains an earnings record for
each Social Security number (SSN) holder. SSA applies this rule to aliens who obtain
nonwork SSNs and work without INS authorization. As such, these aliens are credited
with QCs for unauthorized work, which could result in subsequent entitlement to Social
Security benefits.

Proposal: A legislative proposal prohibiting the crediting of nonwork earnings and
related QCs for purposes of benefit entitlement.

Rationale: SSA’s policy of crediting nonwork SSN accounts with earnings and related
QCs for periods of unauthorized work has been, and will continue to be, costly to the
trust funds unless it is changed. We estimate that, as of May 1998, unauthorized
earnings associated with nonwork SSNs may have already cost SSA trust funds
$287 million. If SSA continues to pay benefits based on unauthorized earnings, it may
spend an additional $63 million in trust fund resources per year. Over the lifetimes of
the nonwork SSN holders and their dependents, we estimate that unauthorized
earnings associated with these nonwork SSNs may cost the trust funds over $1.7 billion.

SSA contends this policy would be administratively burdensome. Additionally, the
Agency believes the issue would be dealt with more effectively through pilot projects for
determining work eligibility. The Agency also stated that it was considering an
amendment to its regulations that will permit the assignment of a nonwork SSN only
when a number is required by a Federal statute or regulation to receive a federally
funded benefit or service. We commend SSA for its participation in the pilot projects
and its proposed efforts to amend regulations pertaining to the issuance of nonwork
SSNs. However, we do not believe these initiatives sufficiently address nonwork SSNs
used in the past to illegally obtain employment in the United States. We also point out
that the pilot project SSA is participating in with the U.S. Immigration and Naturalization
Service (INS) only covers a small group of States and employers. Additionally, as
determined in focus group discussions that SSA and the OIG held with certain industry
representatives, many employers are reluctant to use such services. Although we
applaud the intent of this program, we question whether it will adequately address the
use of nonwork SSNs by noncitizens to illegally obtain future employment.
We also disagree that the implementation would be administratively burdensome. SSA
contends that the Agency’s records would not allow the determination of when an
individual may or may not have been allowed to work. It is our contention that it is the
responsibility of nonwork number holders to amend their SSN records when they
become eligible to work in the United States. Accordingly, we believe that if a nonwork
number holder applies for SSA benefits, he or she should be required to prove that they
have sufficient QCs as a legal worker in the United States before those benefits are
approved.

Effect on Beneficiaries: Illegal and legal aliens who are not authorized to work will not
receive QCs for illegal work activity.

Federalism Impact: None

Cost: Unknown.

Personnel Requirements: Field office personnel would have to process suspension
actions for individuals currently receiving benefits based on QCs illegally earned. SSA
personnel would also need to need to set up system controls that would mark or
segregate earnings reported for nonwork SSNs.

Effective Date: Upon enactment of the legislation.

Contact Person: Kim Byrd, Office of Audit.




                                             2-D
                  Appendix E

Agency Comments
                                                         ~ Sl!C'&
                                                      ~~
                                                      "'.IP-;r)':~
                                                           USA

                                                      \~J!..I

                                           SOCIAL         SECURITY

MEMORANDUM                                                                      31208-24-795


           March 27, 200.2                                                       Refer To   s lJ-3
To         James   G.        Hu~e,   Jr.
                        '.
           Inspector General

           Larry Dye
           Chief of Staff

Subject'   Office of the Inspector General (OIG) Draft Report, "Work Activity for Social Security
           Numbers Assigned for Nonwork Purposesin the State of Utah" (A-14-01-11048)-
           INFORMATION

           We appreciate OIG's additional efforts in reviewing recommendation 5 in the draft report. The
           subsequentreview and infonnation has enabled us to consider a different perspective for that
           recommendation. Our revised comments on the report content and recommendations are
           attached.

           Pleaselet us know if we can be of further assistance.

           Attachment:
           SSA Response




                                                                                                        O
                                                                                                        N
                                                                                                        ::c:
                                                                                                        p
                                                                                                 (f>     ~
                                                                                                 (.I>    N
                                                                                                  1>     0;)
                                                                                                  -
                                                                                                  0      ~
                                                                                                   -     :x
                                                                                                   C>     -
                                                                                                          c:?
                                                                                                          (.}1
                                                                                                           e
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “WORK ACTIVITY FOR SOCIAL SECURITY NUMBERS ASSIGNED FOR
NONWORK PURPOSES IN THE STATE OF UTAH” (A-14-01-11048)


Recommendation 1

SSA should immediately amend its policy to prevent the issuance of nonwork Social Security
numbers (SSN) to individuals who are not authorized to work and need an SSN to obtain a
driver’s license and register a vehicle.

Comment

Effective March 1, 2002, the Social Security Administration (SSA) will no longer issue an SSN
solely for the purpose of securing a driver’s license or motor vehicle registration. The new
policy will close opportunities for illegal work by defrauding an employer with a genuine, but
nonwork, SSN, and limit fraudulent identities attached to nonwork SSNs. SSA issued a letter
from the Commissioner to State Governors advising them of the effective date and the policy
change.

Recommendation 2

Have field office staff independently verify the need for a nonwork SSN and have applications
for nonwork SSNs and their supporting documentation independently reviewed.

Comment

We agree that verifying the validity of the need for the nonwork SSN with the requiring agency
is appropriate. We do not believe that this will be burdensome once we implement the change
described above.

We do not agree that a second independent review is necessary. The verification with the
appropriate agency should sufficiently improve the nonwork SSN enumeration process.

Recommendation 3

Work with the Immigration and Naturalization Service (INS) to resolve data compatibility
problems associated with the nonwork earnings file provided by Social Security Administration
(SSA) and involve employees familiar with the problem.

Comment

We agree. Under the direction of the Enumeration Response Team, a subgroup is currently
working on a proposal to expand the SSN electronic audit trail to capture information that could
also be useful in resolving data compatibility problems between SSA and INS. At this time, no
milestone activities have been determined.


                                               1-E
Recommendation 4

Work to establish an agreement with the Office of Child Support Enforcement (OCSE) whereby
SSA submits nonwork SSN records to OCSE each quarter, and OCSE associates quarterly
earnings with the records before returning them to SSA.

Comment

We believe this recommendation may have merit. The policy change described in
recommendation 1 will close opportunities for illegal work. In addition, we are continuing to
work with INS on a number of fronts to improve enumeration. Once we have assessed the
impact of these activities, we will revisit the recommendation and determine how to best proceed
within the constraints of SSA’s disclosure/privacy regulations and policies on working with and
sharing information with OCSE and INS for the purposes of identifying persons who work
illegally and employers who hire such persons.

Recommendation 5

Use the quarterly wage information or other suitable methods to prevent the assignment of
replacement SSN cards when there is evidence of illegal employment and to advise employers of
nonwork status when verifying employee SSNs.

Comment

We agree that we should tighten controls for issuing replacement cards to aliens who are not
authorized to work. We will investigate the best method for doing that, including the possibility
of issuing revised instructions and reminders on the policy on issuing replacement cards and on
updating Numident records. We will also explore appropriate mechanisms for helping INS
monitor employment authorization.

Recommendation 6

Match the quarterly nonwork earnings file with the Earnings Suspense File to identify and report
to INS employers who consistently hire people who are not authorized employment and
individuals who use, for employment, nonwork SSNs and false identities.

Comment

As with recommendation 4, we believe this recommendation may have merit and we will revisit
the recommendation once we have assessed the impact of the previously referenced activities
that are underway or planned.

Technical Comments

We believe the term "nonwork earnings" as used throughout the report is confusing to the reader.
We suggest using "earnings obtained under a nonwork SSN" as a clearer descriptive expression.



                                               2-E
Page 1, Background - As of August 2001, no States require SSNs for motor vehicle registration.
The second sentence should be changed to show, “SSA currently assigns nonwork SSNs to
individuals who are not authorized to work but need an SSN to obtain a State driver's license,
receive certain other federally funded benefits or services, or to receive State or local general
assistance benefits which require by law that recipients have SSNs."

Page 1, footnote 2 - The following should be added to the introductory POMS reference at the
beginning of the footnote, "as amended by EMs 96-183, 97-11 and 00-153."

Page 2, footnote 3 – Indiana should be eliminated from the footnote and the number of States
listed should be corrected to show 10 States.

Page 4 – In the section, People are Using Nonwork SSNs for Employment, the second sentence
should be changed to reflect that the figure 3,834 is based on nonwork SSNs issued from May
1998 through December 1999, as shown in Appendix C.

Page 4 – In the section, Few Controls Over the Assignment and Use of Nonwork SSNs,
registering a vehicle is not a valid nonwork reason for assignment of an SSN in Utah and
"register a vehicle" should be deleted from the second sentence.




                                               3-E
                                                                        Appendix F


OIG Contacts and Staff Acknowledgments
OIG Contacts
    Kitt Winter, Audit Director, Data Analysis & Technology Audit Division,
    (410) 965-9702

    Pat Kennedy, Audit Manager, (410) 965-9724

Acknowledgments
In addition to the persons named above:

    Carol Ann Frost, Computer Specialist

    Dave Wolfgang, Computer Specialist

    Harold Hunter, Senior Auditor

    Annette DeRito, Program Analyst

    Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at
(410) 966-1375. Refer to Common Identification Number A-14-01-11048.
                           DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                            1
Management Analysis and Audit Program Support Staff, OFAM                 10
Inspector General                                                          1
Assistant Inspector General for Investigations                             1
Assistant Inspector General for Executive Operations                       3
Assistant Inspector General for Audit                                      1
Deputy Assistant Inspector General for Audit                               1
 Director, Data Analysis and Technology Audit Division                     1
 Director, Financial Audit Division                                        1
 Director, Western Audit Division                                          1
 Director, Southern Audit Division                                         1
 Director, Northern Audit Division                                         1
 Director, General Management Audit Division                               1
Issue Area Team Leaders                                                   25
Income Maintenance Branch, Office of Management and Budget                 1
Chairman, Committee on Ways and Means                                      1
Ranking Minority Member, Committee on Ways and Means                       1
Chief of Staff, Committee on Ways and Means                                1
Chairman, Subcommittee on Social Security                                  2
Ranking Minority Member, Subcommittee on Social Security                   1
Majority Staff Director, Subcommittee on Social Security                   2
Minority Staff Director, Subcommittee on Social Security                   2
Chairman, Subcommittee on Human Resources                                  1
Ranking Minority Member, Subcommittee on Human Resources                   1
Chairman, Committee on Budget, House of Representatives                    1
Ranking Minority Member, Committee on Budget, House of Representatives     1
Chairman, Committee on Government Reform and Oversight                     1
Ranking Minority Member, Committee on Government Reform and Oversight      1
Chairman, Committee on Governmental Affairs                                1
Ranking Minority Member, Committee on Governmental Affairs                 1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees,third
parties, and by SSA employees in the performance of their duties. Or also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA ' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
